                                                      VETERANS EMPLOYMENT 

FUSAI                                                 AND TRAINING SERVICE 


        Office of Inspector General—Office of Audit




                                                      TEXAS VETERANS COMMISSION COULD
                                                      ENHANCE SERVICES TO VETERANS WITH
                                                      BARRIERS TO EMPLOYMENT




                                                                          Date Issued:       May 28, 2010
                                                                       Report Number:    06-10-001-02-201
U.S. DEPARTMENT OF LABOR
OFFICE OF INSPECTOR GENERAL
                                                      May 2010
Office of Audit
                                                      TEXAS VETERANS COMMISSION COULD

BRIEFLY…                                              ENHANCE SERVICES TO VETERANS WITH
                                                      BARRIERS TO EMPLOYMENT
Highlights of Report Number 06-10-001-02-201,
to the Assistant Secretary for Veterans’              WHAT OIG FOUND
Employment and Training.                              TVC provided services to meet veterans’
                                                      employment and training needs for 84 percent of
WHY READ THE REPORT                                   the veterans we reviewed; however, we estimate
This report examines the Texas Veterans               6,331 homeless veterans and/or veterans with
Commission’s (TVC) efforts to provide                 disabilities of the 42,983 veterans in our population
employment, training, and placement services to       were not always provided a full range of
veterans. Without intensive services, such as case    employment and training services to meet their
management, resume assistance, referral to            needs. Specifically, only one of the 39 homeless
supportive services, and job search assistance,       veterans and/or veterans with disabilities in our
homeless veterans and/or veterans with disabilities   sample received case management services to
may not be able to overcome their employment          assist him or her to obtain employment.
barriers and obtain and retain suitable
employment.                                           We estimate that 6,331 veterans of the 42,983
                                                      veterans reported served by TVC were homeless
The Jobs for Veterans State Grant Program             and/or veterans with disabilities, but TVC
(JVSG) is the Veterans’ Employment and Training       adequately documented just 251 veterans who
Services (VETS) primary program for serving           received intensive services. Given the low number
veterans' training and employment needs. JVSG         of veterans that TVC reported as having received
supports two principal positions at State Workforce   case management services, we believe the $2.9
Agencies — Disabled Veteran Outreach Program          million in DVOP funding for the period July 1,
(DVOP) specialists and Local Veteran                  2008, through December 31, 2008, could have
Employment Representatives (LVER). The DVOP           been better used.
provides employment and training services to meet
the needs of disabled veterans; economically or       WHAT OIG RECOMMENDED
educationally disadvantaged veterans; and             We recommended that VETS ensure TVC
veterans with other barriers to employment,           provides training to all DVOP staff on accurately
especially homeless veterans. LVER staff provides     assessing veterans’ needs and documenting
and facilitates a range of employment, training,      intensive service activities. We also
and placement services to meet the needs of           recommended that VETS implement a policy
veterans. These services include conducting job       requiring states to enhance their existing oversight
search workshops, as well as providing job            to ensure DVOP specialists provide case
development, vocational guidance, referrals to        management services for homeless veterans and
training, and supportive services. TVC spent $2.9     veterans with disabilities.
million for DVOP and $3.3 million for LVER from
July 1, 2008, through December 31, 2008.              TVC disagreed with the report’s conclusion, citing
                                                      the DOL-OIG result that 84 percent of veterans
WHY OIG CONDUCTED THE AUDIT                           were provided a full range of employment, training,
The OIG conducted this audit to determine if TVC      and placement services as evidence that it is
provided services to meet veterans’ employment        meeting the needs of veterans. TVC did agree that
and training needs.                                   improvements could be made in the services
                                                      provided to the hardest-to-serve disabled and
READ THE FULL REPORT                                  homeless veterans. The Assistant Secretary for
To view the report, including the scope,              VETS committed to improving training and
methodology, and full agency responses, go to:        refocusing the DVOP program on providing
                                                      intensive services.
http://www.oig.dol.gov/public/reports/oa/2010/06-
10-001-02-201
                                                             U.S. Department of Labor – Office of Inspector General



Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2 


Objective — Did TVC provide services to meet veterans’ employment and training 

            needs? ...................................................................................................... 4


    Finding — TVC could enhance services to veterans with employment barriers ........ 4


Recommendations ........................................................................................................ 8


Exhibit
    Exhibit: Analysis of Case Management Services ..................................................... 11


Appendices
    Appendix A         Background ......................................................................................... 15

    Appendix B         Objective, Scope, Methodology, and Criteria....................................... 17

    Appendix C         Acronyms and Abbreviations............................................................... 21

    Appendix D         TVC Response to Draft Report............................................................ 23

    Appendix E         VETS Response to Draft Report.......................................................... 27

    Appendix F         Acknowledgements.............................................................................. 29





                                                                             Veterans’ Services and Outcomes - Texas
                                                                                         Report No. 06-10-001-02-201
                  U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                              Veterans’ Services and Outcomes - Texas
                                          Report No. 06-10-001-02-201
                                          U.S. Department of Labor – Office of Inspector General




U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




 May 28, 2010



                        Assistant Inspector General’s Report


The Honorable Raymond M. Jefferson
Assistant Secretary for Veterans’
 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Jobs for Veterans State Grant Program (JVSG) is the Veterans’ Employment and
Training Services (VETS) primary program for serving veterans' training and
employment needs. Under JVSG, funds are allocated to State Workforce Agencies in
direct proportion to the number of veterans seeking employment within their
state. JVSG supports two principal positions at State Workforce Agencies — Disabled
Veteran Outreach Program (DVOP) specialists and Local Veteran Employment
Representatives (LVER).

The DVOP provides employment and training services to meet the needs of disabled
veterans; economically or educationally disadvantaged veterans; and veterans with
other barriers to employment, especially homeless veterans. In part, DVOP specialists
provide case management services that require the creation of an Individual
Development Plan (IDP). The IDP includes key information relating to veterans’ barriers
to employment, such as short- and long-term goals to address barriers; actions and
timeframes to achieve those goals; and educational, training, and military history. The
DVOP specialist maintains case notes to monitor the IDP, modifying it as necessary.
The DVOP specialist also provides monthly counseling and other intensive service
activities such as resume assistance, referral to supportive services, job search
assistance, and local market information.

LVER staff provides and facilitates a range of employment, training, and placement
services to meet the needs of veterans. These services may include conducting job
search workshops, as well as providing job development, vocational guidance, referrals
to training, and supportive services.


                                            1             Veterans’ Services and Outcomes - Texas
                                                                      Report No. 06-10-001-02-201
                                                 U.S. Department of Labor – Office of Inspector General


The Texas Veterans Commission (TVC) spent $3.3 million for LVER and $2.9 million for
DVOP during the period July 1, 2008, through December 31, 2008.

Our audit objective was to determine if TVC provided services to meet veterans’
employment and training needs.

To achieve our audit objective, we reviewed VETS and TVC policies and procedures
pertaining to services provided to veterans through March 2010. We reviewed a
statistical sample of 245 out of 42,983 veterans for whom TVC reported services were
provided between July 1, 2008, and December 31, 2008, at 8 of the 28 Workforce
Development Areas (WDA) in Texas. We interviewed 147 of the sampled veterans to
determine if they received services that met their employment and/or training needs.
Within the sample of 245, 39 veterans were identified as homeless and/or with
disabilities. We reviewed wage records for 25 these 39 veterans to determine if they
obtained employment. We also reviewed a judgmental sample of 24 veterans from 8
WDAs who received case management services to determine the adequacy of the
services.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Our objective, scope, methodology, and criteria are detailed in Appendix B.

Results In Brief

TVC provided services to meet veterans’ employment and training needs for 84 percent
of the veterans we reviewed. However, we estimate 6,331 of the 42,983 veterans in our
population were homeless veterans and/or veterans with disabilities and TVC did not
always provide a full range of employment and training services to meet their needs.

Specifically, only one of the 39 homeless veterans and/or veterans with disabilities in
our sample received case management services to assist him/her in achieving
employment. In addition, of the 251 homeless veterans and/or veterans with disabilities
we were able to locate and interview, 19, or 76 percent, told us they either did not
receive any services or they received only some of the services that were reported.
Twenty-three of the 25 veterans, or 92 percent, told us they did not obtain employment
from the services provided. Fourteen, or 56 percent, of these 25 veterans told us the
services they received did not meet their needs or only partially met their needs. Based
on our review of veterans’ wage data, the supporting documentation for the services


1
 Two were homeless, 6 were service connected less that 30 percent disabled, 2 were service connected
special disabled, 10 were non-service connected disabled and 5 were disabled but the Work-In-Texas
electronic job matching system did not identify whether they had a service connected or non-service
connected disability.
                                                    2          Veterans’ Services and Outcomes - Texas
                                                                            Report No. 06-10-001-02-201
                                           U.S. Department of Labor – Office of Inspector General


reported, and interviews of veterans, 13 of the 25 veterans, or 52 percent, did not
receive services that met their employment and training needs.

TVC management attributed these deficiencies to a lack of adequate training necessary
for DVOP staff to accurately assess the veterans’ needs and/or document intensive
service activities. We believe that, while the lack of training cited by TVC may have
contributed to the program deficiencies, VETS lacked effective oversight of the DVOP to
ensure that the employment and training needs of homeless veterans and/or veterans
with disabilities were met.

In response to our draft report, TVC stated its conclusion that it is meeting the
employment needs of veterans, based on “the DOL-OIG result that 84 percent of
veterans were provided a full range of employment, training and placement services.”
TVC stated there is room for improvement, particularly with services provided to the
hardest-to-serve disabled and homeless veterans, and noted that it has taken significant
steps to enhance those services.

TVC’s response to the draft report also stated that 1,263 veterans received case
management services rather than the 251 veterans that our report shows as receiving
case management services. However, TVC did not provide supporting documentation,
such as names and participant reference information, in support of the 1,263 veterans it
identified as received case management services. During the audit, TVC provided OIG
with a listing 414 veterans it represented as veterans who entered case management
services for the period under audit. Our review of the listing identified 163 veterans who
had not entered or received case management services during our period. As a result,
we reduced the number of veterans who received case management services to 251.

TVC further responded that it believed the report to be flawed, as it does not distinguish
the results between service-connected disabled and non-service connected disabled
veterans. While we disagree with TVC that the report is flawed, we recognize that
“disabled veteran,” as defined in Title 38 refers specifically to those veterans with a
service connected disability. To clarify the report, we have revised our terminology to
use the term “veterans with disabilities,” where appropriate. VETS management has
confirmed that veterans with non-service connected disabilities have special
employment needs and barriers to employment that the DVOP should address by
providing intensive services (case management).

TVC stated that the wage data used in the report was incomplete because wages
reported from states other then Texas, federal wages, and wages from non-reporting
employers were likely not considered. The Texas wage data record was provided by
TVC and is considered adequate for the purpose of meeting the audit objective. The
wage data was not the only source of information used in forming our conclusion, but
was used in conjunction with other evidence from veterans’ case files and our interviews
of the veterans. None of the veterans we interviewed reported having received federal
employment. Two veterans interviewed stated they had obtained employment. The
wage data provided by TVC showed no reported wages for these two veterans;

                                            3          Veterans’ Services and Outcomes - Texas
                                                                   Report No. 06-10-001-02-201
                                          U.S. Department of Labor – Office of Inspector General


nonetheless, based on the veterans’ statements, we classified both as having had their
employment needs met.

TVC provided additional information for other areas of the draft report they believed
needed clarification or correction. We considered this information and made changes to
the report, as appropriate. However, this information did not cause us to revise our
conclusion that TVC did not always provide the full range of services to address the
employment needs of homeless veterans and/or veterans with disabilities. We estimate
that 6,331 of the 42,983 veterans reported served by TVC were homeless veterans
and/or with veterans with disabilities. Given the low number of veterans (251) that TVC
adequately documented as having received case management services, we believe the
$2.9 million in DVOP funding for the period July 1, 2008, through December 31, 2008,
could have been better used.

TVC’s entire response is contained in Appendix D.

The Assistant Secretary for VETS in response to our draft report recognized the need to
improve intensive services and stated that VETS is coordinating with the National
Veterans’ Training Institute to determine ways to improve intensive service training. In
addition, VETS provided TVC additional funding to establish an online case
management system to document intensive services. Also, VETS committed to
implementing a nationwide initiative to refocus the DVOP program on providing
intensive services in FY 2010. The Assistant Secretary’s entire response is contained in
Appendix E.

Recommendations

We recommended that the Assistant Secretary for Veterans’ Employment and Training
ensure TVC provides training to all DVOP staff on accurately assessing veterans’ needs
and documenting intensive service activities, and that a policy be implemented requiring
states to enhance their existing oversight to ensure DVOP specialists provide case
management services for homeless veterans and veterans with disabilities.


RESULTS AND FINDING

Objective — Did TVC provide services to meet veterans’ employment and training
            needs?

Finding — TVC could enhance services to veterans with employment barriers.

Overall, TVC provided services to meet veterans’ employment and training needs for
the veterans in our sample. We found TVC provided services to meet the employment
and training needs of 206, or 84 percent, of the veterans in our sample. Of the 206
veterans, 122 were interviewed and results indicate 73, or 60 percent, reported
employment after being provided services. For the 84 veterans we did not interview, we

                                           4          Veterans’ Services and Outcomes - Texas
                                                                  Report No. 06-10-001-02-201
                                                U.S. Department of Labor – Office of Inspector General


found the employment and services activities reported for these veterans were
consistent with those for the veterans interviewed.

For the 39 homeless veterans and/or veterans with disabilities identified within our
sample of 245 veterans, TVC did not demonstrate it always provided a full range of
services that addressed their barriers to employment. The DVOP program is designed
to facilitate intensive services — using a case management approach — to veterans
with special employment and training needs, including homeless and veterans with
disabilities. Only one of the 39 homeless veterans and/or veterans with disabilities in our
sample received case management services to assist him/her in achieving employment.
For the remaining 38, TVC did not develop a written plan of action — also called
Individual Development Plan (IDP) — to assist this population of veterans in achieving
employment. TVC managers need to enhance their oversight of services provided to
homeless veterans and veterans with disabilities to ensure services are adequately
provided.

Veterans Program Letter (VPL)-07-05 states that veterans with barriers to employment
such as homeless, disabled and veterans with other barriers should be targeted for
intensive services (case management). The VPL also requires a documented plan of
action for intensive services.

In addition, the Veteran Employment Representative (VER) guide incorporates VPL 07-
05, requiring that the DVOP specialist conduct an assessment of the veteran’s needs,
and as needed, provide case management services that should include the creation of
an IDP. The IDP should contain key information relating to veteran’s barriers to
employment, such as short- and long-term goals; actions and timeframes to achieve
those goals; and educational, training, and military history. Furthermore, the VER guide
states the DVOP case manager should maintain critical case notes to monitor the
veteran’s IDP and modify it as necessary to best serve the needs of the veteran. The
case manager provides monthly counseling and other intensive service activities such
as resume assistance, referral to supportive services, job search assistance, and local
market information.

Based on our testing of a statistical sample of veterans, we estimate with a 90 percent
confidence level that between 4,565 to 8,098, or 10.62 to 18.84 percent, of the 42,983
veterans reported served by TVC were homeless veterans and/or veterans with
disabilities. The point estimate is 6,331, or 14.73 percent. We estimate 6,331 homeless
veterans and/or veterans with disabilities of the 42,983 veterans in our population were
not always provided a full range of employment, training, and placement services to
meet their needs. For the 28 WDAs in Texas, TVC adequately documented only 2512
veterans who received case management services. TVC’s 2008/2009 State plans
reflected that approximately 95 DVOP specialists annually were employed to provide
specialized services for the targeted veterans with special employment needs. We

2
 TVC identified 414 veterans who entered case management services during the audit period. Of the 414
veterans, we determined 251 who entered and received case management services during the audit
period.
                                                 5         Veterans’ Services and Outcomes - Texas
                                                                       Report No. 06-10-001-02-201
                                                    U.S. Department of Labor – Office of Inspector General


consider the number of veterans who reportedly received case management services to
be disproportionately low in relation to our projected population of homeless veterans
and/or veterans with disabilities — only 251 in relation to 6,331. We also consider the
number of DVOP specialists employed to be disproportionately high —95 DVOP
specialists employed to provide case management services to 251 veterans during a 6-
month period.

TVC stated that case management services are not provided simply because a veteran
is homeless or disabled. According to TVC, the decision to provide case management
services is based on a mutual agreement between the DVOP specialist and the veteran.
This raises concern in that we found this mutual agreement to forego these specialized
services is not documented. These concerns are reinforced in that 19 of 25, or 76
percent, of homeless veterans and/or veterans with disabilities interviewed said they
either did not receive any, or received only some, of the services reported. For example,
Work-In-Texas (WIT)3 reported providing counseling, labor market information, job-
search assistance, and job referrals — provided to one veteran, as well as assistance in
developing his resume. This veteran stated he discussed job training with the DVOP
specialist and received job search assistance, but did not confirm the other services
reported.

In addition, 23 of the 25 veterans, or 92 percent, told us they did not obtain employment
from the services TVC reported as provided. The veterans interviewed stated they did
not obtain employment due to the fact that they either did not receive the services, or
the services they received were not helpful in their gaining employment. Overall, 14, or
56 percent, said the services they received did not meet their needs or only partially met
their needs. For example, one disabled veteran said he was hoping to find employers
who hire disabled veterans. He said the DVOP specialist did not discuss his
skills/qualifications or his disability, but just gave him a list of five jobs for which to apply.
The veteran stated that he was hoping the DVOP specialist would have been more
prepared and would have familiarized himself with the veteran’s disability. He said he
did not get what he needed which was employment. Another veteran stated he needed
job training and help finding a job but he did not receive the services to help him.

Based on our review of veterans’ wage data reported, supporting documentation for the
services reported, and veteran interviews, we concluded that 13 of the 25 veterans, or
52 percent, did not receive services to meet their employment and training needs.

To determine if TVC DVOPs properly conducted case management services, we
reviewed a judgmental sample of 24 veterans’ case management files from 8 WDAs. In
13 of 24, or 54 percent, the IDPs reviewed contained questionable employment barriers.
(See Exhibit) For example, one veteran’s employability issue or barrier was incorrectly
shown as seeking warehouse employment. Another veteran’s documentation included
barriers such as punctuality, health care experience, and team player. The veteran’s

3
  WIT-Matches Texas employers with job seekers. It is a real-time, job matching information system for
the state of Texas to help employers and job seekers connect electronically. Also, it is the primary tool for
tracking individual performance of VER staff.
                                                   6           Veterans’ Services and Outcomes - Texas
                                                                            Report No. 06-10-001-02-201
                                            U.S. Department of Labor – Office of Inspector General


resume in the case file incorrectly listed his “employability issues” as employment skills,
knowledge, and strengths.

TVC’s VER Guide states that VERs will consider providing intensive services to
individuals who have one or more barriers to employment and lack the resources to
overcome those barriers. The guide also states the barriers should be specific.

We also found that the goals/steps shown in the IDPs for 15 of the 24 veterans did not
address their barriers. For example, one veteran’s IDP had barriers listed as being
homeless, lack of transportation, lack of money, and limited job skills. The goals/steps
listed to address these barriers were limited in that the veteran received a referral to the
Salvation Army and a job referral. While these steps addressed the barriers of
homelessness and lack of money, they did not adequately address the barriers of lack
of transportation and limited job skills. Without adequate transportation and job-skill
training, the veteran’s opportunity for meaningful and sustainable employment was
limited. TVC officials stated the goals/steps listed do not need to address the barriers to
employment; however, the TVC VER guide states the goals should address barriers.

We interviewed 5 of the 24 veterans whose files showed they received case
management services. Two veterans stated they did not get the services they needed.
The first veteran stated she had a Master’s degree and only needed job-search
assistance. However, TVC encouraged her to agree to complete an IDP in order to help
find her a job. She stated TVC did provide job-search assistance; however, she
eventually found a job on her own. It is questionable why TVC provided this veteran with
intensive services when she reported no barriers to employment. The second veteran
said TVC provided him referrals to a homeless shelter and to Veterans Affairs for
services. The veteran said he wanted to enter into job training because he had a hard
time finding a permanent job. However, because TVC told him he needed to use the
referrals provided, the veteran did not think there were training programs available to
him. The veteran said he felt TVC only wanted to provide job matches to him.

Based on DVOP staff interviews and management responses to our inquiries, the
deficiencies we identified are attributed to a lack of adequate staff training needed to
enable DVOP specialists to accurately assess veterans’ needs and/or document
intensive service activities. These findings also indicate VETS lacked effective oversight
of the DVOP to ensure that employment and training needs of homeless veterans
and/or veterans with disabilities were met, specifically through the DVOP specialists’
duties of providing them intensive services.

In conclusion, while TVC provided services to meet the needs of veterans served for 84
percent of our sample, TVC did not always provide the full range of services to address
the employment needs of homeless and/or veterans with disabilities. The DVOP is
primarily intended to provide intensive services to meet the employment needs of
homeless and other eligible veterans. We estimate that 6,331 of the 42,983 veterans
reported served by TVC were homeless veterans and/or veterans with disabilities, but
TVC adequately documented just 251 veterans who received case management

                                             7          Veterans’ Services and Outcomes - Texas
                                                                    Report No. 06-10-001-02-201
                                          U.S. Department of Labor – Office of Inspector General


services. Given the low number of veterans that TVC reported as having received case
management services to address these veterans’ barriers to employment, we believe
the $2.9 million in DVOP funding for the period July 1, 2008, through December 31,
2008, could have been better used.

Recommendations

We recommend that the Assistant Secretary for Veterans’ Employment and Training
require that TVC:

   1. Provide training to all DVOP staff on accurately assessing veterans’ needs and
      documenting intensive service activities.

We also recommend that the Assistant Secretary for Veterans’ Employment and
Training:

   2. Implement a policy that requires states to enhance their existing oversight to
      ensure DVOP specialists provide case management services for homeless
      veterans and/or veterans with disabilities.

We appreciate the cooperation and courtesies that VETS and TVC personnel extended
to the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                           8          Veterans’ Services and Outcomes - Texas
                                                                  Report No. 06-10-001-02-201
            U.S. Department of Labor – Office of Inspector General




Exhibit 





             9          Veterans’ Services and Outcomes - Texas
                                    Report No. 06-10-001-02-201
                  U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                 10           Veterans’ Services and Outcomes - Texas
                                          Report No. 06-10-001-02-201
                           U.S. Department of Labor – Office of Inspector General




                                                                        Exhibit

     Analysis of Case Management Services

                     Did the IDP               Did the
                       contain               goals/steps
      TWIST ID      questionable            address the
      NUMBER          barriers?          veteran's barriers?
                    Yes No Yes                            No
 1        0000000   Yes                                   No
 2        0038133   Yes                     Yes
 3        0046365                No                       No
 4        0478612   Yes                                   No
 5        0923379                No                       No
 6        1517440                No         Yes
 7        1710242                No                       No
 8        1850192                No                       No
 9        1870011   Yes                                   No
10        2561347                No                       No
11        2707514   Yes                     Yes
12        3022977   Yes                     Yes
13        3825433                No                       No
14        4522578   Yes                                   No
15        4759310                No         Yes
16        4855943   Yes                     Yes
17        5933839                No         Yes
18        6900121   Yes                                   No
19        7742020   Yes                                   No
20        7750158   Yes                                   No
21        8914912   Yes                     Yes
22        9225285                No                       No
23        9318883   Yes                                   No
24        9405232                No         Yes
      Total 13                   11          9            15




                          11           Veterans’ Services and Outcomes - Texas
                                                   Report No. 06-10-001-02-201
                 U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                 12          Veterans’ Services and Outcomes - Texas
                                         Report No. 06-10-001-02-201
               U.S. Department of Labor – Office of Inspector General




Appendices 





               13          Veterans’ Services and Outcomes - Texas
                                       Report No. 06-10-001-02-201
                  U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                 14           Veterans’ Services and Outcomes - Texas
                                          Report No. 06-10-001-02-201
                                           U.S. Department of Labor – Office of Inspector General

                                                                                  Appendix A
BACKGROUND

In 2002, Congress enacted Public Law 107-288, the Jobs for Veterans Act (JVA), to
amend Title 38, United States Code, to revise and improve employment, training, and
placement services furnished to veterans, and for other purposes. Pursuant to the JVA,
the Veterans’ Employment and Training Services (VETS) provides employment and
training services through its Jobs for Veterans State Grants (JVSG) program. One of the
improvements in veterans’ employment and training included adding intensive services.
The term intensive services means local employment and training services of the type
described in Workforce Investment Act, Section 134(d)(3).

The Jobs for Veterans State Grant Program (JVSG) is the Veterans’ Employment and
Training Services (VETS) primary program for serving veterans' training and
employment needs. Under this grant program, funds are allocated to State Workforce
Agencies in direct proportion to the number of veterans seeking employment within their
state. VETS' budget totaled $228.1 million in FY 2008, of which the JVSG received
$161.9 million. The Grant supports two principal positions, Disabled Veteran Outreach
Program (DVOP) specialists and Local Veteran Employment Representative Program
(LVER). These programs provide funds exclusively to serve veterans, other eligible
persons, transitioning service members, qualified spouses, and indirectly, employers.

The DVOP, which is the focus of this audit, provides employment and training services
to meet the needs of disabled veterans, economically or educationally disadvantaged
veterans, and veterans with other barriers to employment, especially homeless
veterans. The Texas Veterans Commission (TVC) spent $2.9 million for its DVOP
between July 1, 2008, and December 31, 2008, for approximately 95 DVOP specialists.

In part, DVOP specialists provide case management services that require the creation
of an Individual Development Plan (IDP).). The IDP includes key information relating to
veterans’ barriers to employment, such as short- and long-term goals; actions and
timeframes to achieve those goals; and educational, training, and military history. The
DVOP specialist maintains case notes to monitor the IDP and modifies the IDP as
necessary. The DVOP specialist also provides monthly counseling and other intensive
service activities such as resume assistance, referral to supportive services, job search
assistance, and local market information.

DVOP specialists facilitate intensive services to veterans with special employment and
training needs. They are required to target special disabled veterans, disabled veterans,
economically disadvantaged veterans and veterans with other barriers to employment,
especially homeless veterans. The primary focus is meeting the needs of veterans and
other eligible persons who are unable to obtain employment through core services.

LVER staff provides and facilitates a range of employment, training and placement
services to meet the needs of veterans. These services may include conducting job
search workshops; and providing job development, vocational guidance, referrals to
training, and supportive services.

                                          15           Veterans’ Services and Outcomes - Texas
                                                                   Report No. 06-10-001-02-201
                 U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                 16          Veterans’ Services and Outcomes - Texas
                                         Report No. 06-10-001-02-201
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix B

OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

We initiated this audit because Congress and the public depend on the information
Veterans’ Employment and Training Services (VETS) provides regarding the services
and outcomes related to the Jobs for Veterans State Grant. We designed the audit to
answer the following question:

Did Texas Veterans Commission (TVC) provide services to meet veterans’ employment
and training needs?

Scope

Our scope included 42,983 veterans who were reported to have received services in the
VETS program July 1, 2008, through December 31, 2008, in all 28 Workforce
Development Areas (WDAs). We selected 8 of the 28 WDAs for testing South Plains,
North Texas, Dallas, East Texas, Upper Rio Grande, Permian Basin, Rural Capital, and
Gulf Coast. Within 8 WDAs we randomly selected a total of 245 veterans and performed
audit work. We also conducted interviews with VETS’ and TVC’s staff in Austin, Texas.
Of the 245 veterans sampled, 39 were identified as homeless veterans and/or veterans
with disabilities. Of these 245 veterans sampled, we interviewed 147 veterans to
determine if services were received and met their employment and/or training needs.
We reviewed wage records for 39 homeless veterans and/or veterans with disabilities to
determine employment.

TVC provided 414 veterans who entered case management services during the audit
period. Of the 414 veterans we identified 251 who entered and received case
management services during the audit period. We selected a judgmental sample of 24
veterans who received case management services. The sample was comprised of one
case management file for each of the case managers in 8 WDAs who had case files.
We analyzed the case management services to veterans to determine the adequacy of
the services provided.

We conducted this performance audit in accordance with generally accepted
government auditing standards for performance audits. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                        17           Veterans’ Services and Outcomes - Texas
                                                                 Report No. 06-10-001-02-201
                                          U.S. Department of Labor – Office of Inspector General


Methodology

To meet our objective we obtained an understanding of VETS and TVC oversight,
policies and procedures through March 2010, and applicable laws and regulations. In
addition, we met with VETS key personnel at the national and regional levels.

Reliability Assessment

We obtained a data file of participants who were reported by TVC to have entered and
received services from January 1, 2008, through December 31, 2008, “OIG DVOP-
LVER Data, WISPR 2008 quarter 4”, dated March 5, 2009. This data file provided by
the Texas Workforce Commission (TWC) contained 129,408 records of participants who
entered and received services during this period. We used ACL and the calculation logic
in the Workforce Investment Streamlined Performance Reporting (WISPR) system’s
reporting specifications to reconcile the data file to the December 31, 2008, cumulative
quarterly report–9133 report. Using the WISPR specifications we were able to reconcile
the numbers reported to the data file provided by TWC. We identified 123,005 veterans
from the 129,408 records after removing non veterans. For our audit period of July 1,
2008, through December 31, 2008, from the 123,005 records we identified 42,983
veterans who had received services. Therefore, we concluded that the data file was
complete as it relates to veterans who entered the program and therefore, was
sufficiently reliable for meeting our audit objective.

In addition, we requested and obtained lists of 414 veterans from TVC that were
reported to include all veterans from the 28 WDAs who entered and received case
management services during our audit period. The TVC data base does not provide
information as to which veterans received specialized service; therefore, we relied on
management’s process to gather and provide the list. Through a comparison of the list
obtained to our universe of veterans, we determined that only 251 of the veterans
received case management services during our audit period. We accepted the list of
veteran’s who received case management services without verification of the
completeness as the audit risk of overstatement for services provided was low.

Sampling

We determined a universe of 42,983 veterans served in 28 WDAs during July 1, 2008,
through December 31, 2008. We used a stratified two-stage cluster random sampling
plan for sample selection. WDAs were stratified separately into three different strata
(high, medium, and low) according to the number of veterans at each WDA. Eight
WDAs out of 28 were randomly selected. From the 8 WDAs, using ACL we selected
random samples of 245 veterans. In 206 of the 245 veterans TVC’s data file did not
identify that these veterans had barriers to gaining employment. We determined through
review of the services reported that the 206 veterans in our sample were provided
employment and intensive service activities to meet their employment needs. In
addition, we found through interviewing 122 of the 206 veterans that 73 or 60 percent
were employed subsequent to reporting services being provided. Given that TVC


                                         18           Veterans’ Services and Outcomes - Texas
                                                                  Report No. 06-10-001-02-201
                                            U.S. Department of Labor – Office of Inspector General


provided services to meet the employment needs of all the 206 veterans we did not
project our results for these veterans.

In addition, we identified 39 of the 245 veteran samples as homeless veterans and/or
veterans with disabilities. TVC identified 3,659 homeless veterans and/or veterans with
disabilities within the universe of 42,983. The results of our analysis indicated that 38 of
the 39 veterans did not receive case management services that would have included an
assessment of the veteran’s needs and an IDP to assist the veteran in gaining
employment.

Based on the high error rate in our sample (38 of 39) we did not project the error rate to
the universe of homeless veterans and/or veterans with disabilities. However, to
validate the number of homeless veterans and/or veterans with disabilities in the
universe of veterans in our audit period, we statistically projected of the number of
occurrences of this group of veterans in the universe of veterans. Accordingly, we are
90 percent confident that 4,565 to 8,098 (10.62 to 18.84 percent) homeless veterans
and/or veterans with disabilities exist in the universe of the total veterans reported
served. The unbiased point estimate is 6,331 (14.73%) homeless and/or veterans with
disabilities.

From the list of veterans that TVC identified as veterans who received case
management services in our audit period we selected a judgmental sample of 24
veterans to analyze. Our selection process involved choosing the most recent case
management service provided for each of the case managers in 8 WDAs who had case
management files. Given the few veterans overall who TVC reported to have provided
case management services we did not select a statistical sample from which to project.

Analyses

To perform our audit we identified the various types of veteran services that are
provided for in the WIA legislation and the additional level of required services for
homeless veterans and veterans with other employment barriers provided for in the
VETS Program Letter 07-05. To determine which veterans in our sample of 245 who
had been identified with barriers to gaining employment and to determine what
employment and intensive service activities all veterans in our sample had been
provided, we reviewed the following sources:

   •   WIT documents,
   •   Case Management files (if available), and
   •   Data elements from the WISPR related to the veteran.

In addition, we interviewed 122 veterans from our sample who were not identified with a
barrier to employment in TVC’s database to obtain their assessment of services
provided by TVC and to determine their employment status after receiving services. We
did not rely on the interview results of the 122 veterans as it related to their assessment
of the adequacy of the services provided by TVC, but did place greater weight on

                                           19           Veterans’ Services and Outcomes - Texas
                                                                    Report No. 06-10-001-02-201
                                          U.S. Department of Labor – Office of Inspector General


whether they reported they were employed after receiving services to measure the
effectiveness of services provided.

For the 39 veterans in our sample who had been identified with barriers to employment,
we compared services provided to those described in VETS regulation and TVC policy,
reviewed wage records and interviewed 25 of those veterans.

In addition, we analyzed a judgmental sample of 24 veterans to whom TVC identified as
having provided intensive service (case management services). The judgmental factor
in our selection included choosing several case files from each of the 8 WDAs selected
in our statistical sample.

Internal Control

In planning and performing our audit we considered TVC’s internal controls that were
relevant to our audit objective by obtaining an understanding of those controls, and
assessing control risk for the purpose of achieving our objective. The objective of our
audit was not to provide assurance of the internal controls; therefore, we did not
express an opinion on TVC’s internal controls as a whole. Our consideration of TVC’s
internal controls relevant to our audit objective would not necessarily disclose all
matters that might be significant deficiencies. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

Criteria

   •	 VPL 07-05 dated July 27, 2005

   •	 Special Grant Provisions for Jobs for Veterans Grant, dated October 1, 2004,
      through September 30, 2009

   •	 Texas Jobs for Veterans Grant State Plan

   •	 TVC’s Veterans Employment and Representative Guide, dated June 2008

   •	 Workforce Investment Act, (WIA)




                                          20          Veterans’ Services and Outcomes - Texas
                                                                  Report No. 06-10-001-02-201
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
ACRONYMS AND ABBREVIATIONS


ACL          Automated Control Language
DVOP         Disabled Veterans Outreach Program
FY           Fiscal Year
Grant        Jobs for Veterans’ State Grant
IDP          Individual Development Plan
JVA          Jobs for Veterans Act
JVSG         Jobs for Veterans State Grant Program
LVER         Local Veteran Employment Representative
OIG          Office of Inspector General
TVC          Texas Veterans Commission
TWC          Texas Workforce Commission
VER          Veteran Employment Representative
VETS         Veterans’ Employment and Training Services
VPL          Veteran Program Letter
WDA          Workforce Development Area
WISPR        Workforce Investment Streamlined Performance Reporting
WIT          WorkInTexas




                                  21             Veterans’ Services and Outcomes - Texas
                                                             Report No. 06-10-001-02-201
                  U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                 22           Veterans’ Services and Outcomes - Texas
                                          Report No. 06-10-001-02-201
                                                                        U.S. Department of Labor – Office of Inspector General


                                                                                                                                               Appendix D
TVC Response to Draft Report



                                               TEXAS VETERANS COMMISSION
                                                                      Stephen F. Austin Building, Suite 800
                                                                    P.O. Box 12277, Austin, Texas 78711-2277
                                                                   (phone) 512/ 463-6564; (FAX) 512/ 475-2395
                                                                  Veterans' HOTLINE: 1-800-252-VETS (8387)
                                                                          E-Mail: info@tvc.state.tx.us
                                                                            Web: www.tvc.state.tx.us


       KAREN S. RANKIN               March 29,2010
  BrigadicrGenernJ, USAF (RetiIod)
               Chair

       T.P.O'MAHONEY
          Vice Chairman              Michael Yarbrough
  ELISEO "AL" CANTU, JR.             Acting Audit Director for VETSfFLC Audits
   Major, US Army (Retired)
             Secretary               U.S. Department of Labor
     JOHN B. McKINNEY
                                     Office of Inspector General - Audit
   Lt. Col., US Army (Retired)       525 Griffin Street, Room 415
             Member
                                     Dallas, TX 75202
        JAMES E. NIER
        Executive Director

  OIARLESBUERSCHINGER
                                     Dear Mr. Yarbrough:
   Deputy Executive Director

     JAMES O. RICHMAN                This report's audit objective was to determine if TVC provided services to meet veterans'
         Director, Claims
   Representation & Counseling
                                     employment and training needs. Based on the DOL-OIG result that 84 percent of veterans
                                     were "provided a full range of employment, training and placement services to meet their
         BILL WILSON
            Director                 needs," we conclude that TVC is meeting the employment needs of veterans.
  Veterans Employment Services

  CONSUELO M. JACKSITS
             Director
                                     While there is room for improvement, particularly with the hardest-to-serve disabled and
        Veterans Education           homeless veterans, TVC has taken significant steps to enhance those services and were
                                     recognized by numerous national level veteran service organizations and workforce
                                     organizations for Texas' exceptional service to veterans.

                                     The list of Awards and Recognitions from 2008 and 2009 include:
                                     1. Mark Sanders Award for Exceptional Service to Disabled Veterans from the National
                                        Association of State Workforce Agencies, 2008.
                                     2. National Employment Office of the Year from the Veterans of Foreign Wars (VFW),
                                        2008.
                                     3. National Employment Office of the Year from the American Legion, 2008.
                                     4. National DVOP of the Year from the American Legion, 2008.
                                     5. National DVOP of the Year from the Disabled American Veterans (DAV), 2008
                                     6. National DVOP of the Year from the DAV, 2009.
                                     7. National LVER of the Year from the DAV, 2009.

                                     As declared in our current State Plan, "one of the key elements in maintaining these high
                                     standards is staff training." This training starts with our own TVC Initial Training for all new
                                     DVOP and LVER staff. We conducted the first of these training sessions in April 2008,
                                     which included significant time for Intensive Services. We continue to perform Initial
                                     Training on a regular basis. Our Annual Training Conference in September 2009 also focused
                                     considerable time on the proper delivery and documentation of Intensive Services, which
                                     included four hours of mandatory Intensive Services training for all DVOP specialists.




                                                       The Texas Veterans Commission does ndt discriminate on the basis oJrace; color, ·c.
                                                      national origin. sex. religion. age or disa~i/ity in employment or prOViding services.




                                                                        23                         Veterans’ Services and Outcomes - Texas
                                                                                                               Report No. 06-10-001-02-201
                                             U.S. Department of Labor – Office of Inspector General




Mr. Yarbrough                                                                                   Page 2


The TVC's training is designed to compliment the instruction received at the National Veterans'
Training Institute (NVTI) which offers two courses in case management. The introductory Case
Management course provides DVOP and LVER with the core requirements for Intensive Services
based on federal law and DOL-VETS policy guidance. Additionally, Texas has funded two Advanced
Case Management courses provided in-state in April 2008 and March 2010. Since 2006, TVC has
filled 540 training seats at NVTI and will continue to aggressively pursue NVTI training.

In 2009 TVC raised staIidards for the quantity and quality of case management files. On September 9,
2009 TVe issued Veterans Employment Services Letter (VESL) 2009-03 increasing performance
standards for all staff, with specific direction to increase the number of veterans receiving Intensive
Services. The VESL also implemented statewide a standard for the quality of Intensive Services files
by requiring a checklist for each file.

With the DOL-VETS release ofVPL 05-09, which allotted additional FY2009 funding to States, TVC
immediately prepared a plan to further improve Intensive Services by developing an on-line Case
Management System (CMS) to replace the current hard copy method. The CMS will automate the IDP
and case notes and provide reporting on current and past veterans enrolled in Intensive Services.
Further, the CMS will enhance the quality of services by ensuring IDPs are complete and easily
reviewed by TVC management. The TVC expects the CMS to be piloted in April and anticipates
statewide implementation in June 2010.

In the area of homeless veterans, TVC makes every effort to assist this population with their
employment needs. However, the very nature of homelessness makes it difficult to maintain contact
with them for job referrals, Intensive Services and other employment assistance. The TVC
employment staff participate in Homeless Standown events across the state and outstations DVOP
specialists at various homeless assistance organizations such as the American GI Forum in San
Antonio.

Despite TVC's employment expertise, due to limited resources, DVOPs must often refer homeless
veterans to agencies and organizations with specific resources to assist them in overcoming the cause
of their homelessness. Currently. two organizations receive grants from DOL-VETS under the
Homeless Veterans Reintegration Program (HVRP). These grantees are an ideal example of
organizations that are dedicated to assisting homeless veterans and have the resources to address their
particular needs.

The TVC disagrees strongly with the language that $2.9 million in DVOP funding "may not have been
spent as intended and the funds could have been put to better use." There is no suggestion in this
report what a "better use" of the DVOP funds might be. Put simply, there is no compelling support for
this statement.

Furthermore, the DOL-OIG confirmed that more than 84 percent of veterans received a full range of
employment service to meet their needs. This report fails to identify any violations of federal law,
regulation or guidance, revealed no questioned or disallowed costs (as they did prior to TVC taking
over the Jobs for Veterans Grant) and found no inconsistencies in TVC's State Plan, training
curriculum or state policy guidance to DVOP specialists regarding Intensive Services.




                                            24                Veterans’ Services and Outcomes - Texas
                                                                          Report No. 06-10-001-02-201
                                             U.S. Department of Labor – Office of Inspector General




Mr. Yarbrough                                                                                    Page 3


The following information in this report needs clarification or correction and may have led DOL-OIG
to make the statement regarding TVC's use of$2.9 million in DVOP funding.
1. This report claims TVC provided a list 414 veterans who received Intensive Services between July
    1 and December 31, 2008. Actually, DOL-OIG requested and was provided a list of veterans who
    entered Intensive Services during the given dates. As a result of this draft report, TVC reviewed all
    veterans who received Intensive Services from a DVOP from July 1 - December 31, 2008 and
    found that 1,263 veterans is the correct figure.
2. The DOL-OIG report incorrectly links barriers to employment with goals in an IDP. As taught by
    NVTI and printed in Section Six of TVC's Veterans Employment Representative Guide,
    identifying barriers and setting long- and short-term goals are two distinct and separate functions.
3. The provision of Intensive Services is not automatic for service-connected disabled or homeless
    veterans. Trained DVOP specialists identify a veteran's barrier(s) to employment through the
    assessment process. Those barriers make an individual veteran a good candidate for Intensive
    Services. Additionally, the veteran job seeker must agree to participate in Intensive Services. This
    agreement and the commitment to participate in Intensive Services is particularly difficult for
    homeless veterans who often lack a permanent address, phone number, email address or other
    reliable method of contact.
4. Wage data used in this report may have been incomplete. For instance, wages reported from states
    other than Texas, federal wages and wages from non-reporting employers were likely not
    considered. On March 12,2010, the DOL, Bureau of Labor Statistics (BLS) released their annual
    Employment Situation of Veterans for 2009. In that BLS report, they identified that "1 in 5
    disabled veterans was employed by the federal government." The result is that DOL-OIG was
    likely unable to capture 20 percent of the wages for the disabled veterans sampled.
 5. This report suggests that some services were recorded but not provided. It is very probable that
    veteran job seekers interviewed by DOL-OIG staff misunderstood the technical jargon used to
    describe WorkinTexas services. All TVC Veterans Employment Representatives are thoroughly
    trained in the use of WorkinTexas. This training includes a detailed understanding of
     WorkinTexas service definitions .. The TVC would not expect a veteran job seeker receiving
     services to know the distinction between a Counseling service and a Labor Market Information
     service or Job Search Assistance. The TVC is confident that services were recorded correctly,
     consistent with WorkinTexas definitions.
 6. This report does not distinguish between service-connected disabled veterans and non-service­
     connected disabled veterans. The United States Code in Title 38, §4211(3) defines disabled
     veteran as service-connected. The sample for this report did not follow this definition and resulted
     in a flawed report title and conclusions.

Beyond the DOL-OIG review of Veterans Employment Services, it's important to recognize the
integrated nature and importance of consolidated services available to veterans from the Texas
Veterans Commission. In 2005, Governor Rick Perry and the State Legislature agreed that
consolidating Employment, Education, and VA Claims Counseling within the State's veteran advocacy
agency was the best model for veterans to access the services and benefits they have earned. Three
years after the consolidation, the Governor and Legislature recognized the record-setting success of
TVC's work and expanded our ability to assist veterans with the addition of the Fund for Veterans'
Assistance in 2009. The Veterans Employment Services program is fully integrated with the agency's
other programs of Claims Counseling, Education, the Fund for Veterans' Assistance and Marketing
efforts. A con5'"tant flow of internal referrals and communication ensures that veterans in Texas have
one-stop to receive the broadest range of services and benefits information available in the county.




                                             25                Veterans’ Services and Outcomes - Texas
                                                                           Report No. 06-10-001-02-201
                                             U.S. Department of Labor – Office of Inspector General




Mr. Yarbrough                                                                                   Page 4


The recent addition of a Business Outreach Coordinator has enabled TVC to improve on the traditional
model of veterans employment services and truly act on behalf of the employer to recruit qualified
veterans for specific jobs. In less than six months of activity, our business outreach efforts have
yielded 78 jobs dedicated for exclusively for veterans from 23 employers.

Consolidating Veterans Employment Services, Claims Counseling and Veterans Education within the
State's veteran advocacy agency and adding the resources of the Fund for Veterans Assistance is an
undeniable success for Texas.

If you have any questions or would like to discuss our response to the draft audit report, please don't
hesitate to contact me.

                                                       Sincerely,




                                                       JAMES E. NIER
                                                       Executive Director

CC:    Mary Stepney, DOL-OIO
       John McKinny, DOL-VETS
       Larry Temple, TWC




                                            26                Veterans’ Services and Outcomes - Texas
                                                                          Report No. 06-10-001-02-201
                                                U.S. Department of Labor – Office of Inspector General


                                                                                                     Appendix E
VETS Response to Draft Report



    u.s. Department of Labor              A    tan! Se retary lor
                                          Veteran s 'mploymen! and Tralnlog
                                          Washlngto DC 20210


                     APR 0 9 l010


             MEMORANDUM TO:                ELLIOT P. LEWIS
                                           Assistant Inspector General for Audit


             FROM:                         RAYMOND M. JEFFERSON ~- . .                   \\ m   .\:,jYL. .
                                           AssIstant Secretary                 ~                 ~~
                                           Veterans' Employment and Training Service


             SUBJECT:                      Texas Veterans Commi ssion Draft Audit Report #06- 10-
                                           001 -02-201


             This memorandum responds to U.S. Department of Labor Inspector General Report on
             the Texas Veterans Commission Draft Audit Report #60-10-00 1-02-201. Your
             recommendations in the Report arc as follows:

                •   that the Assislant Secretary for Veterans' Employment and Training require the
                    Texas Veterans Comm ission to provide training to all Disabled Veterans'
                    Outreach Program (OVOP) spec iali sts on accurately assessing veterans needs and
                    documenting intensive serv ice activities; and,

                •   that the Assistant Secretary for Yeterans ' Employment and Train in g implement a
                    policy that requires states to enhance their existing oversight to ensure OVOP
                    specialists conduct case management services for homeless and disabled vetcrans.

             Veterans' Employment and Training Se rvice (VETS) currentl y provides training on
             assessing veterans needs and doculllenting intensive service activities. This training is
             conducted at the National Veterans ' Training Institute (NVTI). VETS has recognized the
             need to im prove intensive services by OVOP speciali sts and is coordinating with NY'!"I
             to determ ine ways to improve intensive serv ice training. In additi on, VETS provided the
             State of Texas addi ti onal funding to establish an onl ine case management system to
             document intensive se rvices provided by OVOP specialists.

             Over the course of this past year, VETS has identified the need for OVOP specia lists to
             provide more intensive services and to better document those services. Thi s year a
             Nationwide initiative to refocus the OVOP program on providing intensive serv ices will
             be implemented.




                                                27                 Veterans’ Services and Outcomes - Texas
                                                                               Report No. 06-10-001-02-201
                                    U.S. Department of Labor – Office of Inspector General




I would like to take this opportunity to thank the In spector General team for their work on
thi s report. I look rorward to using it to assist in improving emp loyment and training
services to Veterans.




                                    28               Veterans’ Services and Outcomes - Texas
                                                                 Report No. 06-10-001-02-201
                                 U.S. Department of Labor – Office of Inspector General


                                                                        Appendix F
Acknowledgements

Key contributors to the report were Michael Yarbrough, Mary Stepney, Marsha
Secuskie, Dorothy Dorsey, Samantha Cash-Johnson, and Melissa Young.




                                 29          Veterans’ Services and Outcomes - Texas
                                                         Report No. 06-10-001-02-201
IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT: 


Online:        http://www.oig.dol.gov/hotlineform.htm
Email:         hotline@oig.dol.gov

Telephone:     1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
